Department of Homeland Security
   Ofﬁce of Inspector General

            TSA's Oversight of the Airport Badging 

                Process Needs Improvement 

                          (Redacted) 





OIG-11-95                                              July 2011
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                     JUL 07 lOll

                                         Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Transportation Security
Administration's oversight to ensure that individuals who pose a threat are not granted
access to secured airport areas. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                        ~i~
                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................4 


           Airport Badging Process Needs Improvement ........................................................4 


                 AAAE Data Are Inaccurate .........................................................................5                       

                 Airport Badging Office Data Are Inaccurate...............................................6 

                 Quality Assurance........................................................................................8 

                 Training and Tools.......................................................................................9                

                 TSA Inspection Process .............................................................................11 

                 Recurrent Criminal History Records Checks.............................................13 

           Conclusion ............................................................................................................14 


           Recommendations .................................................................................................14 


Management Comments and OIG Analysis .....................................................................15 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................20 

     Appendix B:           Management Comments to the Draft Report .......................................22 

     Appendix C:           Applicant Information Required for Security Threat Assessments .....25 

     Appendix D:           Flowchart of the Vetting Process.........................................................26 

     Appendix E:           Audit Results by Airport......................................................................27 

     Appendix F:           List of Disqualifying Crimes ...............................................................28 

     Appendix G:           Major Contributors to this Report ........................................................29 

     Appendix H:           Report Distribution ..............................................................................30 


Abbreviations
     AAAE                  American Association of Airport Executives
 

     CFR                   Code of Federal Regulations
 

     CHRC                  criminal history records check
         

     DHS                   Department of Homeland Security
 

     GAO                   U.S. Government Accountability Office
 

     OIG                   Office of Inspector General
 

     SIDA                  Security Identification Display Area
 

     STA                   security threat assessment          

     TSA                   Transportation Security Administration
                                    

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 The Transportation Security Administration (TSA) is responsible
                 for protecting the Nation’s transportation systems. This includes
                 ensuring that employees working in secured airport areas are
                 properly vetted and badged. The agency relies on designated
                 airport operator employees to perform the badging application
                 process. Our objective was to determine whether the TSA
                 provides effective oversight for the issuance of airport security
                 badges.

                 Individuals who pose a threat may obtain airport badges and gain
                 access to secured airport areas. We analyzed vetting data from
                 359 airport badging offices and identified          badge holder
                 records with omissions or inaccuracies pertaining to security threat
                 assessment status, birthdates, and birthplaces. For example,
                          of the badges were issued to individuals without a
                 complete security threat assessment. These problems exist because
                 TSA has designed and implemented only limited oversight of the
                 application process. Specifically, the agency did not:

                        Ensure that airport operators have quality assurance
                        procedures for the badging application process;
                        Ensure that airport operators provide training and tools to
                        designated badge office employees; and
                        Require its Transportation Security Inspectors to verify the
                        airport data during their reviews.

                 Consequently, the safety of airport workers, passengers, and aircraft
                 is at risk due to the potential of inappropriate individuals obtaining
                 airport badges. TSA concurred with five recommendations and
                 partially concurred with one that will improve the effectiveness of
                 safeguards over the badging process.




            TSA’s Oversight of the Airport Badging Process Needs Improvement

                                         Page 1
Background
                  TSA is responsible for protecting the Nation’s transportation
                  systems. TSA has the statutory responsibility for requiring
                  individuals with unescorted access to secure areas of the airport to
                  be properly vetted. Secure airport areas include the following:

                       Airport Sterile Area – The area of an airport that provides
                       passengers access to boarding aircraft and to which TSA
                       generally controls the access.
                       Security Identification Display Area (SIDA) – The portion of
                       an airport beyond the sterile area in which security measures
                       are carried out.
                       Air Operations Area – The aircraft movement areas, aircraft
                       parking areas, loading ramps, and safety areas for use by
                       aircraft.

                  In accordance with Title 49 Code of Federal Regulations (CFR)
                  Part 1542, and TSA Security Directive 1542-04-08G, applicants
                  are required to undergo a
                  fingerprint-based criminal            Criminal History Records Check is
                                                        a listing of certain information taken
                  history records check (CHRC)          from fingerprint submissions retained
                  and have an approved security         by the Federal Bureau of
                  threat assessment (STA) from          Investigations in connection with
                  TSA before receiving a badge          arrests and, in some instances, federal
                  and obtaining unescorted access       employment, naturalization, or
                                                        military service.
                  to secure airport areas. TSA’s
                  Transportation Threat                 Security Threat Assessment is
                  Assessment and Credentialing          a check conducted by TSA of
                  Vetting Operations is responsible     databases, including the terrorist
                  for vetting individuals with          watch lists, to confirm that an
                                                        individual does not pose a security
                  unescorted access to secure           threat and possesses lawful status in
                  areas. This is accomplished by        the United States, and to verify an
                  comparing the applicant’s             individual’s identity.
                  information against critical data
                  sets to discern whether the applicant is a threat to transportation or
                  national security.

                  The Transportation Threat Assessment and Credentialing Vetting
                  Operations annually vets approximately 550,000 individuals with




             TSA’s Oversight of the Airport Badging Process Needs Improvement

                                          Page 2
     access to the secure airport areas. During vetting, changes to the
     data sets and watch lists are loaded into the system and compared
     with individuals’ information stored in the vetting system. The
     system vets and provides immediate detection of a match against
     selected databases.

     TSA’s Threat Assessment and Credentialing adjudication service
     completes the STAs for applicants. The service works closely with
     intelligence, law enforcement, and other appropriate agencies to
     mitigate the potential insider threat. It relies heavily on the airports
     to input complete and accurate data.

     TSA relies on Transportation Security Inspectors (Inspectors) to
     provide oversight of the airport badging process. Inspectors
     conduct various inspections, as well as assessments and
     investigations of the badging process, to determine compliance
     with the regulations. TSA requires Inspectors to perform an
     inspection of every airport and air carrier annually.

     TSA also relies on designated airport operator employees as
     trusted agents to perform the essential functions of the badging
     process. Their duties consist of collecting, verifying, and inputting
     applicant data used for the STA process, and fingerprinting
     applicants for the CHRC. Airport operator employees are
     responsible for ensuring that the badge application is complete
     with the required biographical and fingerprint data for the STA and
     CHRC. Critical data processed from the application includes full
     legal name, date of birth, place of birth, passport number, and alien
     registration number. Appendix C lists the required application
     information.

     Airport operator employees electronically transmit applicant data
     and fingerprints to the American Association of Airport
     Executives’ (AAAE) Transportation Security Clearinghouse.
     AAAE provides a centralized aviation credentialing data exchange
     process to facilitate the vetting of aviation employees for TSA.
     AAAE is the data clearinghouse for approximately 359 airports




TSA’s Oversight of the Airport Badging Process Needs Improvement

                             Page 3
                         having formal access control                   Employees could have more
                         programs. Approximately 890,000                than one badge if working for
                         individuals with 1.2 million active            multiple employers at the
                         badges have access to secured                  airport.
                         airport areas.

                         Airport operator employees receive the applicant’s clearance status
                         from AAAE’s Transportation Security Clearinghouse. If the STA
                         and CHRC results are favorable, the airport operator employees
                         will issue the badge with access to secured airport areas. Airports
                         are responsible for ensuring that badges are issued only to qualified
                         applicants and must account for and manage all active and
                         deactivated badges. Appendix D presents a detailed diagram of the
                         vetting process.

                         In 2007, U.S. Immigration and Customs Enforcement conducted a
                         search at one major airport and arrested 23 workers with
                         unauthorized airport access. This effort also identified more than
                         100 temporary employees possessing fraudulently obtained airport
                         security badges. As a result, TSA’s Office of Inspection reviewed
                         the badging process and reported1 vulnerabilities with training,
                         technology, tools, and the CHRC process. Our 2008 report2 also
                         concluded that TSA needed to improve accountability over badges
                         and TSA identification cards.


Results of Audit

    Airport Badging Process Needs Improvement
                 Individuals who pose a threat may obtain airport badges and gain access to
                 secured airport areas. We identified         badges issued to 95,961
                 individuals with one or more instances of omissions or inaccuracies of key
                 applicant data used for vetting. For example         of the badges were
                 issued to individuals without a complete STA. These problems existed
                 because TSA has designed and implemented only limited oversight of the




1
 Review of the Security Identification Display Area Badging Process, (08-IRD-0004), April 2009.
2
 Transportation Security Administration’s Controls over SIDA Badges, Uniforms, and Identification
Cards, (OIG-08-92), September 2008.

                   TSA’s Oversight of the Airport Badging Process Needs Improvement

                                                Page 4
                  application process. Specifically, TSA does not:
 


                            Ensure that airport operators have quality assurance procedures for 

                            the badging process;
 

                            Ensure that airport operators provide training and tools to 

                            designated badge office employees; and
 

                            Require its Inspectors to verify the airport data during their reviews. 


                  Consequently, the safety of airport workers, passengers, and aircraft is at 

                  risk due to the vulnerabilities in the airport operator badging process.
 


                            AAAE Data Are Inaccurate

                            Individuals are not always properly vetted and may inappropriately
                            obtain airport badges and gain access to secured airport areas.
                            AAAE provided us with a database of 1,187,630 active badges
                            belonging to 889,354 individuals at 359 airports. Individuals could
                            have more than one badge if working for more than one employer
                            at the airport. We identified          badges issued to 95,961
                            individuals with one or more instances of omissions or
                            inaccuracies3 of key applicant data used for vetting, such as STA
                            status, birthdates, and birthplaces. These badges were issued
                            without the required information needed for vetting. Table 1
                            summarizes our analysis.

                              Table 1: AAAE Data Integrity


                                   Type of Omission or Inaccuracy              Number of Badges Affected


                              STA Incomplete or Not Conducted
                              Date of Birth
                              Place of Birth
                              Inconsistent Citizenship
                              Total Data Problems Identified
                                                                                                         .




3
  For the purpose of this report, an omission is a blank data field and an inaccuracy is data that are
inconsistent or falling outside established parameters of key biographical data used for vetting.

                     TSA’s Oversight of the Airport Badging Process Needs Improvement

                                                    Page 5
     Many of the omissions or inaccuracies pertained to critical
     information used for vetting. For example, one applicant was
     listed as having three active badges at three different airports. The
     applications for this individual reflected three different places of
     birth: the United Kingdom, Ukraine, and the United States. We
     requested copies of the badging files for this individual from the
     three airports. He is a United States citizen and all three badging
     application files contained copies of his passport identifying the
     United Kingdom as his place of birth. TSA was unable to
     accurately vet the applicant against immigration information to
     determine legal status, yet the airports issued the badges.



     To further examine the integrity of the reported information, we
     requested data from 280 airport badging offices nationwide. TSA
     was unable to provide this information and directed us to request
     the reports from the airports. Only 193 airports were able to
     provide reports on their active badge holders in a timely manner.
     When comparing the airport reports with the AAAE database, we
     identified more than        individuals who possessed badges even
     though their records contained one or more omissions or
     inaccuracies.

     Airport Badging Office Data Are Inaccurate

     We visited 12 of the 193 airports and reviewed physical and
     electronic records belonging to 2,055 active badge holders. We
     compared and analyzed the information reported by AAAE with
     information at the airport badging offices. We identified
     individuals with one or more instances of data omissions or types
     of inaccuracies who therefore should not have been issued a badge.
     For example—

          In instances, there was no proof of an approved STA.
          Other items that were not correctly entered into the airport
          badging database and transmitted to AAAE included the




TSA’s Oversight of the Airport Badging Process Needs Improvement

                             Page 6
          applicants’ full names, dates of birth, places of birth, passport
          numbers, alien registration numbers, or Social Security numbers.

     At one airport, a record contained a
     questionable date of birth;
     however, the record belonged to an
     airport canine. According to
     airport officials, they had issued
     badges to working dogs in the past.
     Although we were informed that           Exhibit 1. Canines such as
     this is no longer standard practice,     this one were previously
                                              issued badges.
     this canine was still listed as an
     active badge holder at the time of our visit.

     Table 2 presents a summary of our analysis. Appendix E provides
     further details.

       Table 2: Airport Visit Data Omissions or Inaccuracies
                Type of Omission or Inaccuracy                Total Badges
                                                                Affected
       STA Inconsistencies
       Date of Birth
       Place of Birth
       Name
       Passport Number
       Alien Registration Number
       Social Security Number
       Applications With Missing or Incomplete Data
       Fields
       Total Omissions or Inaccuracies Identified
       Individuals Involved
       Note: - Five contained two omissions or
       inaccuracies and one contained three.

     Our review indicates that data omissions or inaccuracies could
     potentially lead to airports improperly issuing security badges.
     Additionally, we found that airports are not always collecting
                                                     , even though many
     airport applications contain these data fields. We identified
        records                                    and records with
     incorrect                          . These data elements are




TSA’s Oversight of the Airport Badging Process Needs Improvement

                             Page 7
                           additional unique identifiers that can assist in verifying an
                           applicant’s identity.

                           In response to our preliminary findings, the Airports Council
                           International-North America4 established a task force of its
                           member airports to identify and evaluate best practices for airport
                           identification badging. Some of the best practices identified
                           included conducting audits of badging applications to identify
                           common errors for incorporation into recurrent training classes,
                           providing advanced training on fraudulent document identification
                           and document handling procedures, establishing checks to prevent
                           duplicate records, and establishing a quality control process to
                           review applicant information before it is submitted for an STA.

                           Quality Assurance

                           TSA does not ensure that airport operators have quality assurance
                           procedures to safeguard the completeness and accuracy of the data
                           used for vetting. As the federal agency responsible for
                           transportation security, TSA should use the U.S. Government
                           Accountability Office’s (GAO) Internal Control and Management
                           Tool5 for guidance. This document identifies the need for agencies
                           to have relevant and reliable information in order to run and
                           control operations.

                           Of the 12 airports we visited, the airport with the fewest omissions
                           or inaccuracies established its own quality assurance procedures.
                           This airport had several procedures that could be considered best
                           practices, such as conducting onsite badge audits annually; using a
                           supervisory review checklist to ensure that at least two agents
                           handle each application; using equipment to check identification;
                           and using local police to run criminal investigation checks on
                           badge applicants.

                           As a quality assurance measure, separation of duties at some of the
                           airport badging offices visited has resulted in more data accuracy.




4
  Airports Council International-North America is an industry trade organization representing local, regional,
and state governing bodies that own and operate commercial airports in the United States and Canada.
5
  GAO Internal Control Standards: Internal Control Management and Evaluation Tool, GAO-01-1008G
(August 2001).

                     TSA’s Oversight of the Airport Badging Process Needs Improvement

                                                    Page 8
     Different individuals verifying information would likely enhance
     the detection of missing or inaccurate information, which affects
     the STA outcome. TSA’s Security Directive 1542-04-08G
     requires airport operators to establish a process and identify the
     airport operator employees performing badging functions. The
     directive recommends, but does not mandate, different airport
     operator employees complete one of the following three tasks for
     each applicant:

          Collect and transmit the biographical and biometric 

          information used in a CHRC and STA;
 

          Authorize the issuance of the badge; and 

          Issue the badge. 


     Some sites we visited relied on best practices that could be
     implemented at other airports for ensuring authenticity of
     documentation and data accuracy. For example:

          One airport utilized daily system-generated reports to identify
          and resolve potential problems with active badge holders.
          One airport operator had a Memorandum of Understanding
          with U.S. Customs and Border Protection to have the agency
          verify all immigration documents before submitting the
          information to TSA for vetting.
          Another airport used a supervisory review checklist to ensure
          that at least two agents have reviewed the application for
          completeness and accuracy.

     Training and Tools

     Despite its reliance on the designated airport operator employees,
     TSA does not always ensure that airports are providing these
     individuals with proper training. Only one airport had a formalized
     training program focused on airport operator employees’ duties and
     responsibilities. 49 CFR Part 1542 requires each airport operator to
     ensure that individuals performing security-related functions are
     briefed on specific requirements or guidance as they relate to the
     performance of their duties. Briefings must cover the provisions of
     49 CFR Part 1542, security directives, information circulars, and
     airport security programs.




TSA’s Oversight of the Airport Badging Process Needs Improvement

                             Page 9
     Airport operators and local TSA officials are not fully aware of the
     details of the complex vetting process and the ramifications of
     entering inaccurate biographical data. Officials at the 12 airports
     visited did not know what happens to the data once they enter the
     Transportation Security Clearinghouse. These officials did not
     realize how data entry errors or transposed numbers related to key
     identifying elements could create vulnerabilities, be exploited, and
     provide the wrong individuals access to secured airport areas. For
     example, an applicant with a birth date of January 21, 1965, which
     is incorrectly entered as January 21, 1956, could be vetted and
     approved for a badge.

     TSA does not ensure that airport operator employees are using
     available tools while performing their assigned duties. At
         airports visited, airport operator employees had tools available
     to assist in the identification of fraudulent documents but did not
     consistently use them. Tools include identification document
     scanners, ultraviolet lights, and loupes (magnifying lenses). These
     tools allow closer inspection of documents to prevent fraud.

                           was not always using available tools such as
     an electronic scanner or lights and loupes to inspect documents
     submitted with badge applications. This location has a scanner
     that reads the magnetic strip on a driver’s license or state-issued
     identification card and displays whether it is valid. When
     questioned, one employee admitted to using the scanner only
     occasionally but not using the lights and loupes at all. This
     employee was confident in their ability to identify fraudulent
     documentation without the use of these tools.

     Figure 1 depicts an Alien Registration Card presented for
     identification.                                     does not stand
     out to the normal viewer                                 . However,
     using the appropriate tools and techniques, it is apparent




TSA’s Oversight of the Airport Badging Process Needs Improvement

                            Page 10
                          We identified that training and use of tools such as lights and
                          loupes to identify fraudulent documentation is effective. Trusted
                          agents at one airport prevented four individuals from using
                          fraudulent identification to obtain an airport badge. These
                          individuals were prevented from obtaining badges because the
                          trusted agents received fraudulent document training from the U.S.
                          Customs and Border Protection and used lights and loupes to
                          verify the authenticity of the documents submitted.

                          TSA Inspection Process

                          TSA’s Inspectors review the airport badging process during
                          inspections; however, the limited coverage does not ensure that
                          vetting information is complete and accurate. TSA’s Inspections
                          Handbook and the Performance and Results Information System6
                          provide Inspectors with basic questions and guidance based on
                          regulatory requirements from the CFR and TSA Security
                          Directives.

                          The handbook does not require the Inspectors to verify the
                          information reported to TSA to identify discrepancies with badging




6
 TSA uses the Performance and Results Information System for factual and analytical information,
monitoring compliance, measuring performance, assessing the efficiency and effectiveness of operations,
and conducting inquiries into allegations of noncompliance with statutory or regulatory requirements.

                    TSA’s Oversight of the Airport Badging Process Needs Improvement

                                                 Page 11
     information. It indicates that Inspectors should review employee
     files to ensure that all proper documentation has been submitted
     and returned to the airport operator before an employee is granted
     unescorted access to the secured area. Additionally, TSA does not
     require an established number or percentage of files to be reviewed
     as part of the inspection. Therefore, inspections of badging office
     records may be insufficient to determine the airports’ level of
     compliance with vetting process requirements.

     We reviewed the results of one annual inspection from 2010
     related to the badging process and noted that the methodology did
     not provide an accurate conclusion. For example, the inspection
     reviewed compliance with issuing replacement badges when the
     badge holder provides a written declaration that the badge was lost,
     stolen, or destroyed. The Inspector concluded that the airport
     operator was compliant on the basis of an interview, without
     sufficient evidence of written declaration as a documentary review.

     Inspectors do not always have direct access to the Transportation
     Security Clearinghouse database and are not required to compare
     or cross-reference records. To increase inspection effectiveness
     and efficiency, direct access to the clearinghouse data would
     enable Inspectors to verify records for approved STAs timely and
     take immediate corrective action if necessary. Because
     verification of applicant records against the clearinghouse
     information is not required during the inspection process, TSA did
     not arrange for Inspectors to have access to the data.

     We presented all of our findings to the airport operators, local TSA
     officials, and Inspectors. Our analysis generated 101 updates,
     which airport operators sent to the Transportation Security
     Clearinghouse. We also provided a list of employees with suspect
     STAs beyond our random sample for follow-up, which prompted
     the Inspectors to take corrective action at some locations. For
     example, Inspectors at one airport revealed an additional
     154 badges issued without accurate or complete vetting data. As a
     result, they immediately revoked access pending an approved STA.




TSA’s Oversight of the Airport Badging Process Needs Improvement

                            Page 12
     Recurrent Criminal History Records Checks

     TSA does not require airports to conduct recurring CHRCs to
     ensure that badge holders maintain their reputable status.
     According to 49 CFR Part 1542, an applicant must undergo a
     fingerprint-based CHRC before receiving a badge or obtaining
     unescorted access authority. If a
     badge holder is convicted of a         According to Security Directive
     disqualifying criminal offense after 	 1542-04-08G, badges must be
     receiving a badge, he or she must      renewed at least every two
     report the offense and surrender       years. For a badge renewal,
                                            employees must bring an
     the badge within 24 hours of a         application along with valid
     conviction or a finding of not         identification documentation to
     guilty by reason of insanity.          the airport badging office.
     Appendix F presents a list of
     disqualifying crimes.

     According to airport and TSA officials, the CHRCs should be
     conducted on a recurrent basis. These officials indicated that the
     self-reporting policy is ineffective because most employees would
     not report themselves for fear of losing their job.

     Some airports have proactive measures to mitigate the risk
     involved with the CHRC process. For example, one airport had a
     private detective check 100 names per month for new outstanding
     warrants that may not have been self-reported.

     Passing an initial CHRC does not preclude employees from
     engaging in subsequent criminal activity and presenting an insider
     threat at airports. For example, in 2007, a major news network
     reported that a customer service agent with no prior record was
     found guilty of several instances of accepting bribes totaling
     $21,500 from an undercover agent. The individual agreed to
     smuggle $396,000 along with illegally exporting weapons, military
     night vision goggles, and a cellular phone “jammer” to a foreign
     country. That same year, two workers at another airport were
     arrested after bringing guns and drugs on a flight. One worker was
     able to stow the guns and drugs near the departure gate ramp after
     using his airline uniform and badge to bypass TSA security.




TSA’s Oversight of the Airport Badging Process Needs Improvement

                            Page 13
                           Once a person engages in criminal behavior, he or she is more
                           likely to continue similar or more egregious actions. The
                           individual could also be easily influenced by bribery or coercion
                           and pose an insider threat. Studies have shown that past behavior
                           often corresponds to future criminal activity. A recidivism study7
                           concluded that convicted criminals had a reconviction rate of 39%
                           and overall reincarceration rate of 22%.

                           According to TSA officials, the agency recognizes the need for
                           more frequent criminal checks. The Transportation Threat
                           Assessment and Credentialing office, in cooperation with the
                           agency’s Office of Chief Council, is exploring implementation of a
                           requirement to conduct CHRCs on a recurrent basis.

          Conclusion
                   TSA’s oversight of the airport badging process needs improvement. Only
                   193 of the 280 airports were able to provide reports showing active badge
                   holders for their locations. Unless airport operators implement quality
                   assurance procedures for the badging process, the data integrity and
                   vetting results are questionable. TSA needs to ensure that airports are
                   providing airport operator employees with the proper training and tools to
                   perform their assigned duties and responsibilities. The agency’s
                   inspection activities must be enhanced in order to identify application
                   omissions or inaccuracies for immediate corrective action.

          Recommendations
                   We recommend that the Assistant Administrator, Office of Security
                   Operations for the Transportation Security Administration:

                           Recommendation #1: Require that all airports having formal
                           access control programs establish and implement quality assurance
                           procedures to ensure:

                                    The accuracy and completeness of vetting information, and
                                    Airport personnel conduct their own verifications of
                                    approved applications.




7
    State of Connecticut Recidivism Study Annual Report, March 1, 2007.

                     TSA’s Oversight of the Airport Badging Process Needs Improvement

                                                 Page 14
           Recommendation #2: Require that all airports having formal
           access control programs ensure that airport operator employees
           utilize all available tools to verify the identity of applicants. Also,
           encourage airports to collect passport and Social Security numbers
           from applicants, as these are unique identifiers that can assist and
           expedite the application process.

           Recommendation #3: Develop and provide standardized training
           on identification verification and require airport operator
           employees to complete this training on a recurrent basis. The
           training can be developed in collaboration with other DHS
           agencies with expertise in correctly identifying immigration
           documentation.

           Recommendation #4: Revise the Transportation Security
           Inspector Handbook to improve the oversight of the vetting process
           by requiring independent verifications of approved applications to
           enhance the quality of the data. This will ensure that data in the
           airport badging system and supporting databases are consistent
           with the information from the hard copy applications.

           Recommendation #5: Provide Transportation Security Inspectors
           with real time reports generated from the existing database of all
           active badge holders for analysis. These reports should include an
           analysis identifying possible records with data inaccuracies based
           on factors such as age and duplicate personal identification
           numbers. The reports should provide the agency with immediate
           capabilities to effectively monitor and track the clearance process.

           Recommendation #6: Require airports to conduct a criminal
           history records check for each badge holder on a recurrent basis to
           correspond with badge renewal. This will ensure that individuals
           who have committed disqualifying crimes no longer have access to
           secured airport areas.

Management Comments and OIG Analysis

           TSA concurred with five recommendations and concurred in part
           with one. The agency acknowledged that our audit information




      TSA’s Oversight of the Airport Badging Process Needs Improvement

                                  Page 15
     will be used to improve the efficiency and effectiveness of the
     airport badging process. TSA provided specific comments to the
     report and recommendations. A copy of TSA’s written response is
     included in Appendix B. We summarized and addressed these
     comments below.

     Response to Recommendation #1

     TSA Concurred: TSA explained that Security Directive 1542-04­
     08G enhanced the security threat assessment process with the
     verification and use of biographic and biometric information. TSA
     also indicated the agency will review the quality assurance
     procedures for consistency across airports along with the vetting
     and verification process. The agency acknowledged that airport
     “self-assessments” could provide an additional security measure
     that would need to be supplemented by its own validation of
     approved applications.

     OIG Analysis: As part of TSA’s review of airport quality
     assurance procedures, the agency should focus on procedures to
     guarantee data integrity. Specifically, TSA must create or revise a
     security directive to ensure that there is a separation of duties
     between data entry and validation. This recommendation is
     unresolved until TSA provides a copy of the directive or other tool
     to be used for evaluating airport quality assurance procedures.
     Upon reviewing the documentation, we will close this
     recommendation after determining that it meets the intent of this
     recommendation.

     Response to Recommendation #2

     TSA Concurred: TSA indicated that oversight can be provided
     through periodic inspections to ensure that airport operator
     employees utilize all available tools to verify the identity of
     applicants and to encourage airports to collect passport and Social
     Security numbers from applicants.




TSA’s Oversight of the Airport Badging Process Needs Improvement

                            Page 16
     TSA’s Security Directive 1542-04-08G advises airport operators
     that providing Social Security numbers expedites the STA process.

     OIG Analysis: TSA’s response to this recommendation did not
     fully address the issue of airport operators collecting passport
     numbers which would also facilitate the STA process. This
     recommendation is unresolved until TSA provides documentation
     to support the agency’s (1) plan to confirm that airport operators
     are properly utilizing all available tools to verify the identity of
     applicants and (2) updated security directive, which also includes
     the collection of passport numbers (when available), by airport
     operators when submitting information for the vetting process. We
     will close the recommendation once the agency has provided
     sufficient evidence of corrective actions that satisfy the
     recommendation.

     Response to Recommendation #3

     TSA Concurred: TSA plans to develop and provide standardized
     training on identification verification. The agency will explore
     ways to assist airport operators in improving identification
     verification for airport badge applicants. This includes a
     collaborative effort with U.S. Customs and Border Protection and
     U.S. Citizenship and Immigration Services to develop training for
     detection of fraudulent documents. Additionally, TSA indicated
     the agency is developing a proposed rule to improve and
     standardize STA processes and criteria. This proposed rule is
     supposed to include a provision for training personnel who conduct
     identity verification.

     OIG Analysis: TSA’s response included efforts to help
     identification training; however, the agency did not fully address
     the intent of the recommendation for recurrent training. This
     recommendation is unresolved until TSA provides a corrective
     action plan with dates of completion and names of the responsible
     officials. We will close the recommendation once TSA provides a
     copy of the enhanced training materials, the finalized STA rule,
     and the agency’s plan for recurrent training in this area.




TSA’s Oversight of the Airport Badging Process Needs Improvement

                            Page 17
     Response to Recommendation #4

     TSA Concurred: TSA indicated that it will continue to review the
     Transportation Security Inspector Handbook to further develop the
     inspection methodology for STAs. The agency has identified
     potential enhancements such as the collection of required personal
     data, proper maintenance of personal data in the airport badging
     system database, consistency with dates in the database and on
     hard copy applications, and checking an employee’s “cleared”
     status prior to granting them unescorted access to secured airport
     areas.

     OIG Analysis: This recommendation is unresolved until TSA
     provides a corrective action plan with dates of completion and
     names of the responsible officials. This recommendation will
     remain open until TSA provides a copy of the revised
     Transportation Security Inspector Handbook with the improved
     methodology for the STAs.

     Response to Recommendation #5

     TSA Concurred: TSA partially concurred with this
     recommendation because the capability for providing Inspectors
     with real-time badging data does not currently exist. The agency’s
     response explained that obtaining such real-time data would
     require a feasibility study and additional coordination.

     OIG Analysis: During our audit, we obtained and demonstrated
     the benefit of having real-time reports generated at the local airport
     level. Using current information, an inspection could review the
     population of badge holders and identify questionable data,
     focusing on potential improperly cleared individuals. This
     recommendation is unresolved until TSA provides a corrective
     action plan with dates of completion and names of the responsible
     officials. We will close this recommendation when TSA provides
     evidence that Inspectors will access real time local badging
     information for use in monitoring and tracking the clearance
     process.




TSA’s Oversight of the Airport Badging Process Needs Improvement

                            Page 18
     Response to Recommendation #6

     TSA Concurred: TSA is developing a proposed rule to improve
     and standardize STA processes and criteria. According to TSA,
     this rule will propose a standard duration for all STAs. Upon STA
     expiration, the individual would need to reapply, and the STA
     checks, including the CHRC, would be repeated. This proposed
     rule is still in the coordination process.

     OIG Analysis: This recommendation is unresolved until TSA
     provides a corrective action plan with dates of completion and
     names of the responsible officials. This recommendation will
     remain open until TSA provides a copy of the finalized rule and we
     have determined that it meets the intent of this recommendation.




TSA’s Oversight of the Airport Badging Process Needs Improvement

                            Page 19
Appendix A
Purpose, Scope, and Methodology

                   The objective of our audit was to determine whether the TSA
                   provides effective oversight for the issuance of airport security
                   badges. To achieve our objective, we reviewed prior audit reports
                   to identify any related findings and recommendations. We
                   researched legislation such as the Homeland Security Act of 2002,
                   49 CFR parts 1542 and 1544, Security Directive 1542-04-08G, and
                   other related security directives. We reviewed TSA annual
                   inspections, special emphasis inspections, and airport standard
                   operating procedures to identify documented weaknesses in the
                   badging process.

                   We interviewed officials from various TSA offices, including
                   Transportation Threat and Credentialing, Adjudication Center,
                   Colorado Springs Operations Center, Office of Security
                   Operations, Office of Inspection, and Transportation Sector
                   Network Management. We interviewed officials from AAAE to
                   understand their role in the vetting process and to request database
                   information for all active badge holders. AAAE provided the
                   following fields: last name, first name, middle name, date of birth,
                   place of birth, citizenship, Social Security number, alien
                   registration number, passport number, and passport-issuing
                   country. These data fields are crucial to the vetting process and
                   data for the same fields were requested from more than 280 airport
                   badging offices nationwide.

                   We received data on 616,977 active badges belonging to 598,118
                   individuals from 193 of the 280 badging offices. We attempted to
                   obtain specific badging information from all of the airports
                   reporting to AAAE; however, we were unable to do so as TSA
                   could not directly obtain this information. We then requested the
                   information from the airports, not all of which could provide it.
                   We compared the airport badging system reports with the AAAE
                   data. We assessed the reliability of key data elements by
                   confirming dates of birth and personal identification numbers such
                   as passport numbers and alien registration numbers.

                   We selected 12 airports with high numbers of badged employees,
                   and some locations with close proximity to the borders. We
                   interviewed Federal Security Directors, Assistant Federal Security
                   Directors, Transportation Security Inspectors, Airport Security




              TSA’s Oversight of the Airport Badging Process Needs Improvement

                                          Page 20
Appendix A
Purpose, Scope, and Methodology

                    Coordinators, and designated airport operator employees, or
                    trusted agents. For the 12 airports, we reviewed a total of 241,582
                    records. We also selected a statistically valid sample size of
                    physical records to review using IDEA software. Using a 95%
                    confidence level, 5% sampling error, and 50% population
                    proportion, the required sample size was 384. We reviewed
                    additional records and compared a minimum of 100 employee
                    records at each site, as shown in Table 3. We cross-referenced
                    hardcopy applications to the airport badging database. The airports
                    used our analysis to update AAAE and also deactivated, revoked,
                    or reissued some badges, depending on the results.
              Table 3. Airports Visited and Analysis Results
                            Airport                   Number of       Number of      Total
                                                      Statistical     Judgmental   Hardcopy
                                                       Records          Records     Records
                                                      Reviewed         Reviewed    Reviewed
                                                          60               40         100
                                                          10               94         104
                                                          98               2          100
                                                          13               87         100
                                                           6               94         100
                                                          10               90         100
                                                          22               78         100
                                                           7               93         100
                                                         113               0          113
                                                           5               95         100
                                                          29               71         100
                                                          11               89         100
                             Totals                      384              833        1,217

                    We conducted this performance audit between October 2010 and
                    January 2011 pursuant to the Inspector General Act of 1978, as
                    amended, and according to generally accepted government
                    auditing standards. Those standards require that we plan and
                    perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions based
                    upon our audit objectives. We believe that the evidence obtained
                    provides a reasonable basis for our findings and conclusions based
                    upon our audit objectives.




              TSA’s Oversight of the Airport Badging Process Needs Improvement

                                          Page 21
Appendix B
Management Comments to the Draft Report



                                                                               u.s. LHplnm.nl.r lIom"'lod Sll'Clrily
                                                                               6~1 S001l121h Str.C]
                                                                               AtJinitoll, VA 2Oi')S

                                                                               Transportation
             MAY 18 2011                                                       Security
                                                                               Admjnistration



                                                 rNFORMATION


      MEMORANDUM FOR:                       Anne L Richards
                                            Assistant Inspeclor Gem;ral for Audits
                                            V.S. Department of Homeland Security (DHS)

      FROM:


      SUBJECT:
                                      (P     o    SPislOlej:9~:>--,·
                                                  lnIstralor
                                                         .'

                                            TSA's Oversight Of/he Airport Barlgmg Proces! Needs
                                            Improl'ement - Sensitive 5ecuril)' Information (551)
                                            OIG Projeci No. IO-154-AUD-TSA




      This memorandum constitutes the Transportation Security Adminislralion';; (TSA) response to
      the DHS Office of the Inspector General (DIG) draft report entitled TS...f's Ol'er.sight of/he
      Airport Badging Process Needs Improvement - SenSitive Security InformatiolJ fSSI), OIG Project
      ~o.   1D-154·AUD·TSA. dated April 5, 2011.

      Background

      Between October 2010 Ilnd January 2011, OIG conducted a n;vicw to detcnnine whether TSA
      provides effective oversight for the issuance of airport security badges and if individuals who
      pose a threat may obtain airport badges and gain access to secured airport areas. Overall, the
      OIG concluded that TSA's oversight of the airport badging process needs improvement

      Discussion

      TSA appreciates DIG's work in completing [his audit and will use the information in the audit (0
      assist our ongoing efforts to improve the efficiency and effectiveness of the airport badging
      process. TSA is already imp[t:menting solutions that address several recommer.dations contained
      in the report. With regard to DIG's six recommendations, TSA responds as follows:

              Recommendation #1: Require that all airporls having forma) access control programs
              establish and implement quality assurance procedures 10 ensure'




                   TSA’s Oversight of the Airport Badging Process Needs Improvement

                                                      Page 22
Appendix B
Management Comments to the Draft Report


                                                                                                             2

                     • The accuracy and completeness ofvelting information, and
                     • Airport personnel conduct their own veri lications of approved applications.

      TSA Concurs. TSA's Security Directive (SD) I542-04·08G enhanced the security threat
      assessments (STAs) process by requiring airport operators to verify and use lrusted agents for
      collection and processing ofbiographic and biometric informatiol). TSA will review the quality
      assurance procedures for consistency across aiJTKlrls along with lhe vetting and verification
      process. While "self-assessment" could provide an additional security measure, TSA would still
      need to validatel:ompliance so an airport operator is not the sole point of validation for
      verificauon of approved applications.

             Recommendation #2: Require that all airports having formal access control programs
             ensure that airport operator employees utilize all available tools to veri fy the identity of
             applicants. Also, encourage airports 10 collect pzsspon and Social Security numbers
             from applicants, as these are unique identifiers thai can assist and expedite the application
             process.

      TSA Concurs. While TSA can provide oversight and periodic inspections regarding available
      tools and their proper use, accountability for the proper use and implementation of those tools
      dtJfing the application process remaillS with the airport and its trusted agents. TSA '5 Security
      Directive I 542-04-08G advises airpor1 operators that providing social security numbers helps
      speed up the STA process.

             Recommendation #3: Develop .md provide standardized training on identification
             verification and require airport operator employees to complcte this training on a
             recurrent basis. The training can be developed in collaboration with other Department of
             Homeland SecurilY components wilh expertise in identifying immigr3tion
             documentation.

     TSA Concurs. TSA continues to explore ways to assist airpot1 operators in improving
     identlfication verification for airport badge applicants. TSA provided training and tools (black
     light and Ioupe) in a 2009 presentation to airpon operalors regarding fraudulent document
     identification. TSA continues to encourage voluntary use of e- Verify.

     TSA is working with U.S. Customs and Border Protection and U.S. Otizenship and Immigration
     Services to develop <=.dditional training in the defection of fraudulent documents. In addition,
     TSA is developing a proposed rule to improve and standardize the procc:.sses and criteria used for
     almost all of the STAs conducted under TSA '5 regulations. including STAs for airport workers.
     This rulemaking, often referred to as the "Universal Rule," will address all aspects of the STA
     process, including the processeE for verifying the idcntityofthe STA applicants. The rule, which
     is still in coordination, will also propose Iraining for persormel who conduct identity verification.
     We believe this initialive will address this recommendalion.


             Recommendation #4: Revise the Trar.sportation Security Inspector Handbook to
             improve the oversight of the vetting process by requiring independenl verifications of




                  TSA’s Oversight of the Airport Badging Process Needs Improvement

                                                 Page 23
Appendix B
Management Comments to the Draft Report


                                                                                                      3

           approved applications to enhance .he quality of the data. This \vill ensure that data in the
           airport badging system and supporting databases are consistent with the infomlatioD from
           the hard copy applications.

    TSA Concurs. TSA currently inspects airpol1 operators to ensure that persons with unescorted
    access authority have undergone and properly cleared an STA and that the STA files are
    complete and properly documented with timely submissions. While TSA does not have the
    capacity to independently verify every application. TSA will continue to review the
    Transportation Security Inspector Handbook to further develop the inspection methodology for
    STAs. Possible enhancements could include the collection of required personal data, proper
    maintenance of that data in the airport badging system databases, consistency in dates with the
    infonnation from the hard copy applications, and "cleared" status for employee prior to a grant
    of unescorted access.

           Recomm~DdaUon#S: Provide Transponation Security Inspectors with real time reports
           generated from the existing database of all active badge holders for analysis. These
           reports should include an analysis identifying possible records with data inaccuracies
           based on factors such as age and duplicate personal identification numbers. The reports
           should provide the agency with immediate capabilities to effectively monitor and b1lck
           the clearance process.

    TSA Concurs, In Part. While we undcrstand the intent of this recommendation, the capabilily
    for real-time requests for badge personnel at any airport does not exist at this time. Currently,
    TSA requires a monthly submission pursuant to SO 1542-04-8G for airport operators, by airport
    category. This includes a comprehensive List of badge/medi a holders along with an audit of their
    media holdings (not less than 10 percent via random selection every 6 months) during TSA-Ied
    comprehcnsivc inspections each ycar. TSA will consider the feasibility of requiring additional
    reports.

           Recommendation #6: Require airport'S to conduct a criminal history records check for
           each badge holder on a recurrent basis to correspond with badge renewal. This will
           ensure that individuals who have conunitted disqualifying crimes no longer have access
           to secured airport areas.

   TSA Cune.rs. As explained in the respoose to Recommendation #3. TSA is developing a
   proposed rule intended to improve and standardize the processes and criteria used for almost all
   of the STAs conducted under TSA's regulations. Among other things, this rulemaking \vill
   propose a standard duration for all STAs conducled by TSA. including STAs for airport workers.
   The standard duration means that all STAs, including airport worker STAs, ...vill expire after a sct
   time. After this set time the individual would need to reapply for his or her STA, and the checks
   comprising the STA would be repeated. including the criminal history records check. While the
   rulcmaking has not completed coordination. we believe tbat the Universal Rule initiative will
   adequately address this recommendation.




                  TSA’s Oversight of the Airport Badging Process Needs Improvement

                                                Page 24
Appendix C
Applicant Information Required for Security Threat Assessments

To initiate a security threat assessment, airport operators must submit the following
applicant information to TSA:

       �   Full legal name
       �   Current address
       �   Phone number
       �   Gender
       �   Date of birth, country of birth, citizenship country code
       �   Social Security number (optional, but providing it expedites the process)
       �   Non-U.S. citizens: Alien registration number and I-94 Form number
       �   Nonimmigrant visa holders: Visa control number
       �   Numerous items for U.S. citizens born abroad
       �   Employer's name
       �   Airport code, airport category
       �   Identification media information (such as level of access)

To initiate a criminal history records check, airport operators must:

       � Verify the identity of the individual through two forms of identification
       � Collect, control, and process one set of legible and classifiable fingerprints
         under direct observation of the airport operator or a law enforcement officer.
       � Submit fingerprint data to the FBI for processing




                 TSA’s Oversight of the Airport Badging Process Needs Improvement

                                             Page 25
Appendix D
Flowchart of the Vetting Process




               TSA’s Oversight of the Airport Badging Process Needs Improvement

                                           Page 26
           Appendix E
           Audit Results by Airport



              Total     Regulatory STA Date Place Name ARN Omissions SSN Passport Missing or Record with
           Individuals Omissions or     of    of               or                 Incomplete Multiple
            with Any Inaccuracies      Birth Birth        Inaccuracies              Record Omissions
          Omissions or                                      in Other                              or
          Inaccuracies                                    Information                        Inaccuracies
                                                             Used in
                                                             Vetting




The following identifies the issues which we considered omissions or inaccuracies. The STA, Date of Birth, Place of Birth, Name, and
ARN categories were further identified as regulatory discrepancies:
STA: No proof of STA, or badge was issued before an approved STA result was received.
Date of Birth: Date of birth incorrectly entered in electronic system.
Place of Birth: Not contained in supporting documents with a record, or place of birth incorrectly entered in electronic system.
Name: Misspelled first name, last name, or middle initial.
ARN: Incorrect alien registration number in electronic system.

We also considered Social Security and passport numbers as Inaccuracies as these data elements are additional unique identifiers that can assist in the
verification of an individual’s identity.
                      .
SSN: Incorrect Social Security number in electronic system.
Passport: Incorrect passport number in electronic system.
Incomplete Record: Problems with–
     Blank Field: Hardcopy application missing or a specific data field was not filled in, such as passport number, ARN, place of birth, access level, escort
     privileges, or other identification number.
     Missing Signature: The applicant, airport operator employees, employer, or signatory failed to sign on an appropriate line.
     Missing Printed Name: The applicant, airport operator employees, employer, or signatory failed to print their name on an appropriate line.
     Missing Date: The applicant, airport operator employees, employer, or signatory failed to date the appropriate line.
     Missing Signature and Date: The applicant, airport operator employees, employer, Customs and Border Protection agent, or signatory failed to sign and
     date on an appropriate line.




                                     TSA’s Oversight of the Airport Badging Process Needs Improvement

                                                                          Page 27
Appendix F
List of Disqualifying Crimes



(1) Forgery of certificates, false marking of aircraft, and other aircraft registration violation;
49 U.S.C. 46306.
(2) Interference with air navigation; 49 U.S.C. 46308.
(3) Improper transportation of a hazardous material; 49 U.S.C. 46312.
(4) Aircraft piracy; 49 U.S.C. 46502.
(5) Interference with flight crew members or flight attendants; 49 U.S.C. 46504.
(6) Commission of certain crimes aboard aircraft in flight; 49 U.S.C. 46506.
(7) Carrying a weapon or explosive aboard aircraft; 49 U.S.C. 46505.
(8) Conveying false information and threats; 49 U.S.C. 46507.
(9) Aircraft piracy outside the special aircraft jurisdiction of the United States; 49 U.S.C.
46502(b).
(10) Lighting violations involving transporting controlled substances; 49 U.S.C. 46315.
(11) Unlawful entry into an aircraft or airport area that serves air carriers or foreign air carriers
contrary to established security requirements; 49 U.S.C. 46314.
(12) Destruction of an aircraft or aircraft facility; 18 U.S.C. 32.
(13) Murder.
(14) Assault with intent to murder.
(15) Espionage.
(16) Sedition.
(17) Kidnapping or hostage taking.
(18) Treason.
(19) Rape or aggravated sexual abuse.
(20) Unlawful possession, use, sale, distribution, or manufacture of an explosive or weapon.
(21) Extortion.
(22) Armed or felony unarmed robbery.
(23) Distribution of, or intent to distribute, a controlled substance.
(24) Felony arson.
(25) Felony involving a threat.
(26) Felony involving—(i) Willful destruction of property; (ii) Importation or manufacture of a
controlled substance; (iii) Burglary; (iv) Theft; (v) Dishonesty, fraud, or misrepresentation; (vi)
Possession or distribution of stolen property; (vii) Aggravated assault; (viii) Bribery; or (ix)
Illegal possession of a controlled substance punishable by a maximum term of imprisonment of
more than 1 year.
(27) Violence at international airports; 18 U.S.C. 37.
(28) Conspiracy or attempt to commit any of the criminal acts listed above.




                   TSA’s Oversight of the Airport Badging Process Needs Improvement

                                                Page 28
Appendix G
Major Contributors to this Report

                    Patrick O’Malley, Director, Transportation Security Division
                    Sharon Trodden, Audit Manager
                    Anthony Colache Auditor-in-Charge
                    Michael Brunelle, Program Analyst
                    Gregory Crissey, Program Analyst
                    Ruth Arevalo, Program Analyst
                    Corneliu Buzesan, Program Analyst
                    Brandon Landry, Program Analyst
                    Scott Wrightson, Program Analyst
                    Mohammad Islam, Statistician
                    Elizabeth Clark, Independent Referencer




               TSA’s Oversight of the Airport Badging Process Needs Improvement

                                           Page 29
Appendix H
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Transportation Security Administration

                      Administrator
                      OIG Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




               TSA’s Oversight of the Airport Badging Process Needs Improvement

                                           Page 30
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
